CONNOR & CONNOR,

LLC

TRIAL LAWYERS
www. TheConnorFirm.com

September 2, 2021
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: SNH SEAshley River Tenant, LLC v. Arredondo, No. 21-196
Dear Mr. Bickell:
I am counsel for respondent in the above-referenced case. On August 9,
2021, a certiorari petition was docketed in this case. On August 18, 2021, I
filed a waiver on behalf of respondent. On August 31, the Court called for a
response, which, unless extended by the Court, would be due on September
30.
Pursuant to Rule 30.4, I respectfully request an extension of 30 days,
to and including November 1, 2021. I have several pressing obligations
during the upcoming weeks, including a trial, a mediation, and multiple
depositions. An extension will allow me to meet these obligations and also to
file a response that adequately addresses the points raised in the petition.
The additional time will also allow me to associate with counsel with
experience before the U.S. Supreme Court.
For these reasons, I ask that a 30-day extension to November 1, 2021,
be granted. Thank you for your attention to this matter.

Cc: E. Joshua Rosenkranz, Counsel for Petitioner

507 COURTHOUSE LANE· AUGUSTA, GEORGIA 30901 • 706.755.8378
302 PARK AVE SE • AIKEN, SOUTH CAROLINA 29801 • 803.226.0543
1.800.480.9715 (f)

